  DEPARTMENT OF HOMELAND SECURITY
     Office of Inspector General


       Review of FEMA Guidance for
    Monitoring Debris Removal Operations
           For Hurricane Katrina




OIG-07-63                  August 2007
removal costs. At this rate, the cost to monitor the estimated $4.1 billion debris removal operations
for Hurricane Katrina in LA and MS would amount to $328 million.

Our review consisted of a limited assessment of FEMA guidance on debris monitoring, as well as
the monitoring efforts of FEMA and the States of LA and MS. We did not review efforts of local
governments or the guidance and monitoring efforts of the USACE. We interviewed FEMA and
state officials and reviewed FEMA publications and award documents. The review was performed
during October and December 2006.

The nature and brevity of this assignment precluded the use of normal audit protocols. Therefore,
we did not conduct the review according to generally accepted government auditing standards. Had
we followed such standards, other matters may have come to our attention.


                                      RESULTS OF REVIEW


A.     FEMA GUIDANCE ON MONITORING DEBRIS OPERATIONS

FEMA debris monitoring guidance is fragmented, disjointed, and incomplete. The guidance is
contained in at least three separate publications. These publications individually address some, but
not all, aspects of debris monitoring operations.

The FEMA publications addressing debris monitoring are:

1. Public Assistance Debris Management Guide, FEMA 325. FEMA developed this publication to
provide guidance to community leaders for planning, mobilizing, organizing, and controlling a large-
scale debris removal and disposal operation. The guide contains general information on debris
organization and staffing, removal and disposal activities, and contracting. The publication,
however, contains limited guidance on debris monitoring.

According to the guide local governments should use their own staff or hire a local engineering firm
to monitor debris removal operations. Furthermore, local debris monitors are responsible for
accounting for the amount of debris picked up and verifying the amount hauled to dump sites. The
guide, however, does not address the need for local monitors to be familiar with FEMA debris
eligibility requirements and the need to verify eligibility compliance during the monitoring process.

2. Public Assistance Debris Operations Job Aid 9580.1. FEMA developed this publication for the
benefit of FEMA public assistance staff. It contains guidance addressing FEMA public assistance
debris management responsibility, mission assignment, and debris clearance, removal, and disposal
strategy. Although not written for local government grant recipients, it specifies that local
governments should have debris monitors and provides tips for monitoring debris removal efforts.

3. Debris Monitoring Field Pocket Guide for FEMA Public Assistance Program Region III. The
FEMA debris manager in LA said, in addition to the two publications above, they also used the
Region III Field Pocket Guide. FEMA Region III developed this guide at the request of the FEMA




                                                                                                        2
Headquarters Recovery Division, and Region III monitors have used it at disaster sites. The guide,
however, is not an official FEMA publication and is not used nationally.

Nonetheless, the guide is clearly the most comprehensive and useful debris monitoring publication
of the three. It is exclusively devoted to debris monitoring, addressing such issues as roles and
responsibilities of debris monitors, debris eligibility requirements, and debris monitoring operations.
It also contains several useful checklists to assist monitors in fulfilling their responsibilities.


B.     RESPONSIBILITY FOR DEBRIS MONITORING AND LEVEL OF EFFORT

None of the above publications address a state’s role, as a FEMA grantee, in the debris monitoring
process. According to all of the publications, local government must, and FEMA may monitor
debris removal operations. However, none of the publications clearly address the state’s role and
responsibility for monitoring debris removal operations.

44 CFR, Section 1340, assigns the state, as the grantee of FEMA funds, responsibility for monitoring
the operations of its local sub-grant recipients. This technically includes debris removal operations.
FEMA publications on debris operations, in addressing the monitoring responsibility of FEMA and
local government, should also define a state’s responsibility in debris removal monitoring activities
of its sub-grantees.

FEMA and State Efforts in LA and MS. FEMA and the State of MS were very much involved in
debris monitoring. FEMA and MS officials had a close working relationship and a staff of 25 and
17 debris specialists, respectively. These specialists were responsible for determining debris eligible
for pickup and disposal, monitoring debris loads from dump site observation towers, and roaming
affected areas in the state to identify and resolve debris-related issues. FEMA officials and the state
debris manager documented many monitoring problems, which were shared with the Homeland
Security Inspector General’s investigative staff in MS.

For LA, FEMA assigned more than 100 staff members to debris monitoring in various LA parishes.
Some of these employees reportedly worked side-by-side with local monitors at dump site towers
observing and recording the amount of debris delivered to those sites.

LA efforts in monitoring the debris removal activities of local governments was less prevalent. The
state used a contractor to help manage the FEMA programs. The contractor, in turn, subcontracted
with one company for debris monitors and another company for advice, and expertise regarding
debris monitoring, supervision, and training. According to the contractor’s debris manager, who was
authorized to speak as a representative of the state, the subcontractors did not monitor the debris
removal operations of local governments. Instead they served as debris technical advisers to the
state, representing the state and local governments’ interest in debris removal issues with FEMA.
When a subcontractor employee observed improper debris activities while traveling the state, they
verbally reported their observations to parish officials. He advised that there were no written reports
prepared on such incidents.




                                                                                                      3
Local Government Efforts in LA and MS. According to the three FEMA publications, primary
responsibility for monitoring debris removal operations resides with the affected local governments
who hired contractors to perform debris removal work. The FEMA debris removal award contained
funding for debris removal monitoring or funding was provided under separate projects.

The debris monitors were retained to oversee the removal and management of the debris, ensure that
only eligible debris is removed and it is done in a safe manner, and ensure that the correct volumes
of debris are recorded. However, we did not assess the quality of work of the local governments’
debris monitors.


C.     CONTRACTING FOR DEBRIS MONITORS

FEMA needs to clarify its guidance on contracting for debris monitors. The two official FEMA
publications (Guides 325 and 9580.1) suggested that local governments retain a local engineering
firm to monitor their debris removal operations when local government employees are unavailable.
According to Guide 9580.1, however, registered professional engineers are not necessarily required
for monitoring activities.

Several local governments retained engineering firms under existing contracts to monitor debris
removal operations (see Reports GC-MS-06-55 and GC-MS-06-48). Rather than negotiating lower
rates for debris monitoring, the local governments used the existing rates for engineering services.
As a result, the local governments failed to comply with OMB Circular A-87, which requires
compensation to be commensurate with the nature of services performed, and 44 CFR 13.36 (f) (1),
which requires cost or price analyses for noncompetitive contract or contract modifications.


                                           CONCLUSION


The Director of FEMA’s Public Assistance Division provided us with two recently developed draft
publications and said that another document would be developed to satisfactorily address our
concerns.

The first publication is a revised draft Debris Management Guide, FEMA 325. This guide
encourages local governments to develop a debris management plan for use in the event of a disaster
and to include debris monitoring as a major component. The second publication is a draft debris
monitor field pocket guide, tailored after the FEMA Region III guide, which is being developed as a
quick reference for FEMA monitors to use when in the field.

Additionally, in view of our findings, the director told us that FEMA will develop a comprehensive
debris monitoring guide to assist FEMA, state, and local monitors. This guide will reportedly
outline the debris monitoring responsibilities and the specific tasks of contractors, grant recipients
(sub-grantees), states (grantees), and FEMA, and provide operational guidance to assist those parties
in fulfilling their monitoring responsibilities.




                                                                                                       4
                                     RECOMMENDATIONS


We recommend the Acting Assistant Administrator for Disaster Assistance:

   1. Develop a comprehensive consolidated guide for monitoring debris removal operations that:
      (a) addresses the monitoring role of FEMA, states, and local monitors; (b) provides an
      organized and cohesive overview of debris monitoring operations, and identifies the related
      expectations of FEMA, state, and local monitors; and, (c) clarifies the requirements for
      contracting for debris monitoring services and emphasizes the need for competitive
      contracting and negotiated rates that are commensurate with the nature of services provided.

   2. Finalize the draft Debris Management Guide FEMA 325 for local governments and the field
      pocket guide for FEMA monitors.


               DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP


We discussed the results of the review on March 13, 2007, with the Director of FEMA’s Public
Assistance Division. The director agreed with our findings and reported that actions are underway to
address shortcomings.

Please advise us within 30 days of the target date for full compliance with the recommendations.
Should you have any questions concerning this report, please call me, or your staff may contact
Norm Brown at (202) 254-4100.

cc: DHS Audit Liaison
    FEMA Audit Liaison




                                                                                                     5
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •   Call our Hotline at 1-800-323-8603;
    •   Fax the complaint directly to us at (202) 254-4292;
    •   Email us at DHSOIGHOTLINE@dhs.gov; or
    •   Write to us at:
          DHS Office of Inspector General/MAIL STOP 2600, Attention:
          Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
          Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
